(                      NATIONAL RAILROAD PASSENGER CORPORATION

                                OFFICE OF THE INSPECTOR GENERAL

                                  INVESTIGATIVE CLOSING REPORT


    TITLE: Financial Reporting Irregularities                    CASE NUMBER: 01- 086

    DATE OF REPORT: Oclobet· 8, 2008                             SUMMARY REPORT

    REPORT PREPARED BY:                            •

    BAGI(GROUND:

                      'Iaatlon began In approximately May of .
                          an Amtrak employee, commented to . . . .       l1li1
                                                                           of
                         Amtrak employees were making numerous journal entries to      books to "hang up"
          expenses on the balance sheet or to move revenue, Implying they were "cooking the books,"
          creating the Impression that Amtrak was meeting Its budget targets. The Office of the Inspector
          General (OIG) began a Joint Investlg~tlon with the United States Postal Inspection Service.


    SUMMARY OF INVESTIGATION:

      1) Amtrak's OIG determined                                                                   _
                                               I                     to va      entl        reports, financial
          statements, and oral representations Indicating that Amtrak was 'on the "GlJdepath" to aclllevlng
          operational seff-sufflclency when, In fact, Amtrak was not meeting Its financial goals and was not
          "on the GlJdepath."

          During Amtrak's FY 2001, which ran from October 1, 2000, to September 30, 2001, Amtral<
          executive management, Including _and                  examined variances on the monthly profit
          and loss financial statements. Variances expressed the difference between actual profit and loss
          amounts to the budgeted amounts. At times the financial statements reflected a favorable variance
          (I.e., showing that Amtrak's losses were lower than expected) and other times showed an
          unfavorable variance (showing that the losses were higher than expected).

         After_and                           the prelJmlnary profit and loss statements, _directed areas
         to be looked at and                    Individuals to make manual journal entries that would reduce
         the variance, so as to increase 01' decrease Amtrak's expenses and revenues as needed to bring
         results closer to the budget plan ("booking to budget"). In the beginning of FY 2001, Amtral<was In
         a cash poor position and needed a cash Infusion In order to make payroll. If cash was not obtained
         quickly, Amtrak was facing bankruptcy.

          Although George Warrington (Warrington), _                   and a few people In the Finance
          Department were aware of Amtrak's serious financial position, this Information was guarded and
          not shared among other company employees. Warrington represented to Congress, ARC, lenders,
          and others that Amtrak was In good finanCial condition, when as CEO he approved the financing
          arrangements to mortgage Penn Station. Instead of going to Congress for additional funding,
         .Warrlngton professed that Amtrak was managing Its money and was "on the Glldepath."
    2, After an Investigation lasting several years that Involved the United States Attorney's Office for the
       District of Columbia and tile assistance of a Federal Grand Jury, the OIG concluded that
       Inappropriate entries Included on Amtrak's financial statements provided to government entitles and
       private lenders were misleading when they Indicated that Amtrak was "on the glidepaUl to self
       sufficiency" and was only $500,000 off budget.

    3, While prosecution was subsequently declined, Wilkie Farr & Gallagher were retained by the Board
        of Directors to conduct all Independent review and to advise tile Board on the conclusions of the
       OIG, Wilkie Farr concluded that many of the OIG's factual findings were correct, Wilkie Farr
        concluded that "Amtrak personnel made false and/or non·GAAP compliant manual accounting
       entries to monthly financial records, for the express purpose of making the reported monthly resulls
       appeal' closer to budget." Wilkie Farr concluded, "as did OIG, that uncorrected, Inappropriate
       Journal entries had been made In months for which monthly and quarterly Interim financial
       statements were prepared and delivered to a' number of entities - among others, the Board of
       Directors, Amtrak Reform Council, Federal Railroad Administration, Deparlment ofTransportation,
       ~enders," Wlilkle Farr concluded that                          employees,                        and
       _ , violated Amtrak corporate policy by,                        case, knowingly booking non·GAAP
       or otherwise Inappropriate accounting entries, and In          case, failing to report his knowledge
       of such practices In a timely fashion," Wilkie Farr further cOlicluded that "neither of the two


                                                               _'s
       individuals whose legal fees were advanced by Amtrak during the OIG's Investigation are entitled to
       Indemnification, though the original determination to advance those IndlvkllJals' fees was
       appropriate," Amtrak advanced fees of $60,485 on                 behalf and $88,136 on
       behalf, Wilkie Farr concluded that "nellher Individual acted In good faith and In a manner
       reasonably believed to be In Amtrak's best Interests," _          and            were released from
                                                                                                          s


       employment In May of 2007,

RECOMMENDATIONS:




Director Special Investigations/
Deputy Counsel's Signature:

Deputy Inspector General!                ~
Counsel's Signature:   ----'a~G.""7"-7.4~--'~...:;..--------




                                                 , 2
